No.

IN THE

Supreme Court of the United States
FRANCISCO ZENDEJAS,
Petitioner,
V.

UNITED STATES OF AMERICA,

Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

Certificate of Service

I, Harini P. Raghupathi, appointed to represent the petitioner under the
Criminal Justice Act, certify that on September 17, 2020, one copy of the Petition for
a Writ of Certiorari, the Appendix, and a Motion to Proceed In Forma Pauperis in the
above-captioned case were served by first-class mail, postage prepaid, to respondent's
counsel. I further certify that all parties required to be served have been served.
Service was addressed as follows:
Noel J. Francisco
Solicitor General of the United States
Room 5614
Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001
Harini P. Raghu athi
Federal Defenders of San Diego, Inc.
225 Broadway, Suite 900
San Diego, California 92101
Telephone: (619) 234-8467
Attorneys for Petitioner

